OIG Investigative Reports, Former College Employee Pleads Guilty to Stealing Student Loan Checks
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Kansas City, MO, January 31, 2003
Office of United States Attorney
Western District of Missouri
400 East Ninth Street, Room 5510
Kansas City, MO 64106
For Information Contact Public Affairs
Don Ledford (816) 426-4220
FORMER COLLEGE EMPLOYEE PLEADS GUILTY TO STEALING STUDENT LOAN CHECKS
KANSAS CITY, Mo. - Todd P. Graves, United States Attorney for the Western District
of Missouri, announced that a former Longview Community College employee pleaded guilty
today to stealing 14 student loan checks with a total loss of approximately $30,000.
Cynda L. Long, 52, of Lee's Summit, Mo, pleaded guilty before U.S. District Judge
Ortrie D. Smith this morning to defrauding the U.S. Department of Education and stealing from
Federal Guaranteed Student Loan Program funds on repeated occasions from August 1999 to
April 2000.
By pleading guilty, Long admitted that she received a total of 14 student loan checks
from various banks, which were deposited into her personal checking account.
The checks represented six different individuals and loan applicants. In most cases, the
individuals whose names appeared on the checks, were not attending Longview Community
College or were ineligible to receive federal student loans at the time the checks were deposited
into Long's account. Long admitted that she stole the identity of her children and other
individuals to submit fraudulent student loan applications. In addition, Long admitted that she
obtained the name and social security number of at least one of the victims from the school's
computer data base.
Long spent the money and blamed her conduct on a gambling addiction. She worked as a
student financial aid assistant at Longview Community College from 1999 to 2000 and worked
three years previously in the college's business office.
The case is being prosecuted by Assistant U.S. Attorney Christina Y. Tabor. The case was
investigated by United States Department of Education's Office of the Inspector General.
Earlier, on March 22, 2001, Long pleaded guilty to forgery in the Circuit Court of
Jackson County, admitting she stole two additional student loan checks totaling $2,141 from
Longview Community College.
This news release, as well as additional information about the office of the United States
Attorney for the Western District of Missouri, is available on-line at
www.usdoj.gov/usao/mow
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov